                      U.S. COMMODITY FUTURES TRADING COMMISSION
                                            Three Lafayette Centre 

                                 1155 21st Street, NW, Washington, DC 20581 

                                         Telephone: (202} 418-5000 

                                          Facsimile: (202} 418-5521 

                                                 www.cftc.gov



   Office of the 

Inspector General 

                                      MEMORANDUM




TO:             Mark P. Wetjen, Acting Chairman

FROM:           A. Roy Lavik, Inspector General ~
                                                         ?iS
DATE:           May 1, 2014

SUBJECT:        Office of the Inspector General Audit Report -#14-P-06-0ED-CP

Attached is the Commodity Futures Trading Commission (CFTC) Office of the Inspector General
(OIG) audit report on:

         CFTC 's Consumer Outreach Program's Efforts for Enhancing Awareness ofRegulatory
         Resources and Protections Available to Commodity Market Users Against Fraud

The CFTC-OIG contracted with an independent public accounting firm, Williams Adley &
Company DC, LLP to conduct this audit. The OIG participated in this audit and concurs with
Williams Adley & Company DC, LLP' s findings in the attached audit report. The findings were
discussed with the Consumer Outreach Officer and staff, their comments is included in the final
report.

Should you have any questions regarding this report, please do not hesitate to contact me.
April 29, 2014


Mr. Tony Baptiste
Office of Inspector General
U.S. Commodity Futures Trading Commission
Three Lafayette Centre
1155 21st Street, N.W.
Washington, DC 20581


Dear Mr. Baptiste:

Attached is the final performance audit report, Audit of the Consumer Outreach Program’s Efforts
for Enhancing Awareness of Regulatory Resources and Protections Available to Commodity Market
Users Against Fraud. This final report presents the result of our audit of the Consumer Outreach
Program and includes recommendations, management responses and auditor analyses.

We appreciate the courtesies extended to us during the audit. Should you have any questions please
call me, or your staff may contact Tavonna Serious, Audit Supervisor, on (202) 371-1397.

Sincerely,


Charbet M. Duckett, CPA, CGFM
Partner




                             WILLIAMS, ADLEY & COMPANY-DC, LLP
                      Management Consultants/Certified Public Accountants
 1250 H Street, NW, Suite 1150 • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
          COMMODITY FUTURES TRADING COMMISSION


Audit of the Consumer Outreach Program’s Efforts for Enhancing Awareness 

             of Regulatory Resources and Protections Available to

                   Commodity Market Users Against Fraud





                                  April 24, 2014





                  Williams, Adley & Company-DC, LLP
                  Certified Public Accountants/Management Consultants

                            1030 15th Street, NW, Suite 350 West

                                   Washington, DC 20005

                                    202-371-1397 Phone

                                 TABLE OF CONTENTS



Executive Summary                                                              1


Background                                                                     3


Results of Audit                                                               5


       Consumer Outreach Program needs to improve its coordination with the

       Division of Enforcement                                                 7

       Recommendation                                                          8

       Management Response and Auditor’s Analysis                              8


       Consumer Outreach Program has not maximized the use of social media     8

       Recommendation                                                          9

       Management Response and Auditor’s Analysis                              9


       Consumer Outreach Program does not have its own website                 9

       Recommendation                                                          10 

       Management Response and Auditor’s Analysis                              10 


       Consumer Outreach Program needs to expand its methods of

       disseminating information to its investors                              10 

       Recommendation                                                          10 

       Management Response and Auditor’s Analysis                              11 


       Consumer Outreach Program should consider expanding its staff           12 

       Recommendation                                                          13 

       Management Response and Auditor’s Analysis                              13 


Conclusion                                                                     13 


Appendices

      Appendix A: Objectives, Scope, and Methodology                           14 

      Appendix B: Management Response                                          15 

EXECUTIVE SUMMARY

The Commodity Futures Trading Commission (CFTC or Commission) was created by Congress
with the mandate to regulate commodity futures and options markets in the United States. The
agency protects market participants against manipulation, abusive trade practices and fraud.
Through effective oversight and regulation, the CFTC enables the markets to better serve their
important functions in the nation’s economy by providing a mechanism for price discovery and
a means of offsetting price risk. To ensure the financial and market integrity of the nation’s
futures markets, the CFTC reviews the terms and conditions of proposed futures and options
contracts. Before an exchange lists a new futures or options contract for trading, it must certify
that the contract complies with the requirements of the Commodity Exchange Act (CEA) and
the Commission’s regulations. The Commission polices the derivatives markets which, since
2010, includes the Swaps markets in order to sustain market integrity including curbing the
incidence of fraud.

On July 21, 2010, Section 748 of the Dodd-Frank Wall Street Reform and Consumer Protection
Act (Dodd-Frank Act) amended the CEA by adding Section 23, “Commodity Whistleblower
Incentives and Protection”. Established in Section 23, was the CFTC Customer Protection Fund
for the payment of awards to whistleblowers, and the funding of customer education initiatives
designed to help customers protect themselves against fraud or other violations of the
Commodity Exchange Act.

The objective of our audit was to evaluate existing plans, programs, and contracts for improving
consumer education of the risks and regulatory resources available to participants in the
commodity markets and ascertain compliance with program mandates outlined in the Dodd-
Frank Act. Our audit of the Consumer Outreach Program (Program) indicated that it is in
compliance with the requirements of the Dodd-Frank Act. While the CFTC staff has taken
several positive steps to implement the Consumer Outreach Program in compliance with the
Dodd-Frank Act, work remains to ensure that the Program maximizes its effectiveness and
efficiency in educating consumers on how to protect themselves against fraud. The Office of
Consumer Outreach (OCO) has identified an initial target audience and is developing a social
marketing plan help this group avoid fraud under the CFTC’s jurisdiction. OCO has prepared
and disseminated information through a variety of channels. Over the audit period OCO’s staff
traveled to various conferences and money shows in order to educate the public. Since
December 2011, vendor contracting of approximately $40,000 were used primarily for online
advertisement, printing, and mailings.     We found that the expenditures adhered to CFTC
financial procedures and were in compliance with Dodd-Frank Act. Additionally, as part of their
strategic outreach marketing plan, OCO staff hired a contractor to identify ways to best reach
those likely to be impacted by fraud. Work on that contract was scheduled to be completed by
the end of March 2014. However, the completion date has been pushed back by approximately
two months. Continued implementation of the marketing plan as well as other initiatives is
awaiting the issuance of that report.

While recent efforts are commendable, we believe there are additional actions that could be
taken to ensure information about fraud, and how to avoid it in the commodities market, is
disseminated to the public to the maximum extent possible. We believe greater use of
information available through the Division of Enforcement, use of social media, implementation

                                                1

of a website designed specifically for the Program, expansion of methods to disseminate
information to the public, and hiring or contracting for additional resources with expertise in
commodities, marketing, and regulatory experience could improve OCO’s efforts to educate
consumers about fraud in the commodities markets. It is not possible to identify a specific
metric to indicate OCO’s success in curbing fraud; however, we believe taking the actions we
recommend will improve the awareness of the investing public.




                                              2

BACKGROUND

The Commodity Futures Trading Commission (CFTC or Commission) was created by Congress
with the mandate to regulate commodity futures and options markets in the United States. The
agency protects market participants against manipulation, abusive trade practices and fraud.
Through effective oversight and regulation, the CFTC enables the markets to better serve their
important functions in the nation’s economy by providing a mechanism for price discovery and
a means of offsetting price risk. To ensure the financial and market integrity of the nation’s
futures markets, the CFTC reviews the terms and conditions of proposed futures and options
contracts. Before an exchange lists a new futures or options contract for trading, it must certify
that the contract complies with the requirements of the Commodity Exchange Act (CEA) and
the Commission’s regulations. The Commission polices the derivatives markets which, since
2010, includes the Swaps markets in order to sustain market integrity including curbing the
incidence of fraud.

On July 21, 2010, Section 748 of the Dodd-Frank Wall Street Reform and Consumer Protection
Act (Dodd-Frank Act) amended the CEA by adding Section 23, “Commodity Whistleblower
Incentives and Protection”. Established in Section 23, was the CFTC Customer Protection Fund
for the payment of awards to whistleblowers, through the whistleblower program, and the
funding of customer 1 education initiatives designed to help customers 2 protect themselves
against fraud or other violations of the Commodity Exchange Act. Although the Dodd-Frank
Act required the CFTC to establish customer education initiatives; it lacks specificity thus
providing CFTC with broad latitude to develop the program. The Commission undertakes and
maintains consumer education through the Office of Consumer Outreach (OCO). Created in
December 2011, OCO’s top priority is to develop a long-term anti-fraud outreach campaign
grounded upon research-based audience segmentation and social marketing principles. OCO is
actively involved with ongoing federal financial literacy efforts, including participating as a
member of the Financial Literacy and Education Commission (FLEC). FLEC was established
under the Fair and Accurate Credit Transactions (FACT) Act of 2003. FLEC is made of the
heads of 22 federal agencies including: the Department of Treasury, the Securities and Exchange
Commission, the Federal Trade Commission, and CFTC.

The Customer Protection Fund is non-appropriated and its operations are funded from Civil
Monetary Sanctions collected by the CFTC that exceed $1 million per court awarded sanction.
In addition, in accordance with the statute, CFTC shall deposit certain collected monetary
sanctions into the fund as long as the balance of the fund at the time the monetary sanction is
collected is less than $100 million. This applies even when the deposit would cause the balance
of the fund to exceed $100 million. During fiscal year (FY) 2012, CFTC deposited $76.7
million into the Customer Protection Fund with approximately $1 million 3 for the Office of


1
  The Dodd-Frank Act refers to “customer”. However, CFTC uses the word “consumer” instead of “customer”.

Except when referring to the Act, we will use consumer throughout this document synonymously with customer.

2
  Customers include current and potential future users of the commodity derivatives markets for hedging and 

speculating.

3
  As stated in the CFTC 2013 President’s Budget and Performance Plan, Exhibit 2 Whistleblower Program and CFTC

Customer Protection Fund.


                                                       3

Consumer Outreach to fund consumer education initiatives, administrative expenses, and three
full-time personnel, two of which were hired in FY 2012.

The Office of Inspector General has determined that OCO is making progress with “Expanding
Delivery of Customer Protection Resources and Consumer Education”, which was identified as a
serious management challenge in FY 2012. OCO’s progress is due to the development of a long-
term, anti-fraud outreach campaign grounded upon research-based audience segmentation and
social marketing principles. In doing so, OCO recently contracted with a marketing firm to
develop and test an initial series of messages and content targeting investors who are prime
targets 4 for investor fraud.

Appendix A contains details of the audit objectives, scope, and methodology.




4
    OCO has identified its primary target audience as men and women ages 50-65.

                                                         4

RESULTS OF AUDIT

CONSUMER OUTREACH PROGRAM COMPLIES WITH DODD-FRANK ACT BUT
WORK REMAINS

Our audit of the Consumer Outreach Program indicated that it is in compliance with the
requirements of the Dodd-Frank Act. While the Commodity Futures Trading Commission staff
has taken several positive steps to implement the Consumer Outreach Program in compliance
with the Dodd-Frank Act, work remains to ensure that the Program maximizes its effectiveness
and efficiency in educating consumers on how to protect themselves against fraud. The OCO
staff has identified an initial target audience and is developing a social marketing plan help this
group avoid fraud under the CFTC’s jurisdiction. OCO has prepared and disseminated
information through a variety of channels including travel to various expositions and money
shows 5 in order to educate the public. As part of their social marketing plan, OCO staff hired a
contractor to identify ways to best reach the target audience. Work on that contract was
scheduled to be completed by the end of March 2014. However, as a result of certain Paperwork
Reduction Act reporting requirements, the completion date has been pushed back by
approximately two months. Continued implementation of the social marketing plan as well as
other initiatives is awaiting the issuance of that report.

As discussed throughout this report, our assessment of this campaign and discussions with other
federal regulatory agencies has allowed us to identify some best practices, as well as some
suggestions on how OCO could improve on its current efforts to educate consumers about
indicators of fraud, regulatory resources, fraud protection and other violations of the CEA.

    Actions Taken to Date to Comply with Dodd-Frank Act

The Dodd-Frank Act’s lack of specificity gives OCO staff broad latitude in implementing a
program to educate the consumer. OCO staff has taken several steps to ensure that their efforts
to put a program in place to educate the consumer about fraud in the commodities market comply
with the Dodd-Frank Act.

OCO conducts outreach efforts towards consumers through a variety of methods. OCO has
undertaken some short term initiatives such as providing the public with educational publications
that address scams and lists the red flags of fraud. In addition, due to the unprecedented number
of Ponzi scams affecting the American public, OCO is developing a long-term targeted outreach
campaign to help consumers take the necessary steps to protect themselves against this and other
types of fraudulent activity.

We noted through our review of Customer Protection Fund cost reports, that track the budget and
expenditures, that the Program has staffing that travels to and attends conferences and money
shows to reach financial consumers, has an advertising campaign, and contracts with vendors in

5
  Money shows feature exhibitors on topics that range from commodity trading advice, software tools for
identifying speculative trading opportunities, and products for investing and/or speculating in the financial
markets.


                                                          5

an effort to reach as many consumers as possible. Since inception, vendor contracting of
approximately $40,000 were used primarily for online advertisement, printing, and mailings.
We found that the expenditures adhered to CFTC financial procedures and were in compliance
with Dodd-Frank Act.

Also, OCO staff have not only taken steps to implement the Program in compliance with Dodd-
Frank, but stated that they have been conservative in their efforts to implement the program.
OCO has been strategic in their consumer outreach efforts as they are waiting on the final results
from the marketing firm’s contract work on effective methods to reach their target audience.
The OCO staff told us that they did not want to be viewed as wasting program funds by
disseminating information in a manner that is later determined to be ineffective in reaching the
target audience. While such an approach is prudent, as discussed in detail later in this report we
believe that this approach may preclude the staff from getting their message out to the investing
audience timely.

   Positive Steps Taken But More Work Needs to Be Done

CFTC staff has taken several steps to ensure that it implements an effective and cost efficient
consumer outreach program. However, we believe that there are several additional steps that can
be taken to ensure that the Program’s message is disseminated to the maximum number of
people in an efficient and cost effective manner. A review of the methods OCO `staff have
utilized and the associated metrics shows that the majority of print materials distributed have
been through libraries. Other means of distribution include fulfilling online requests, mailings to
state agencies, universities, the General Services Administration, and attending various money
shows and expositions. Through these means they have potentially reached 44,000 consumers.

OCO has contracted with a communications expert firm to assist in developing its outreach
Program and in identifying the most effective method of getting its message out to the investing
community. However, based on our discussions with other federal regulatory agencies affected
by the Dodd-Frank Act, such as Securities and Exchange Commission (SEC) and Federal Trade
Commission (FTC), we believe that enhancements can be made to OCO’s current efforts.

First, we believe that OCO and DOE can use the data available to them to provide better data
about consumers in order to provide additional targeted fraud indicators and fraud avoidance
information to consumers. Additionally, we do not believe that CFTC has maximized the use of
social media to disseminate the Program’s message. And while information about the Program
is included on CFTC’s webpage, a separate webpage specifically for the Program could give it
more exposure. Finally, we noted that comparable Federal agencies have a work force that is
much larger than OCO staff. These agencies have staff ranging from thirteen to fifty with
expertise in content messaging, marketing, regulations, and other disciplines. The following
provides details and recommendations about the enhancements that could be made to OCO’s
current efforts.




                                                6

Consumer Outreach Program and Division of Enforcement Needs To Improve Their
Usage of Information

The OCO staff and the Division of Enforcement (DOE) staff should work together on an
ongoing basis to enhance the fraud information available for consumers, to more
effectively use the information already available “in-house” and to investigate ways to
benefit both offices. In 2012 the OCO initiated discussions with the DOE to obtain any
available data about fraud victims. These discussions proceeded for at least four months
while the offices determined what information was available and permissible for sharing.
The OCO was able to gather the approximate number of complaints received by the
CFTC in a given timeframe, the percent of each gender of complainants, and a very
rough estimate of the complaint rates by state. From interviews with DOE lawyers, the
OCO also learned about general traits or behaviors of fraud victims, and the ways in
which commodities fraud is perpetrated including outreach and persuasion tactics. This
information was used in the development of publications and information for the website.
As another example of enhancements as a result of their collaboration, additional
questions have been added to the online complaint form so that more fraud victim
information useful to OCO could be obtained.

In a CFTC press release dated October 24, 2013, the agency stated that it filed 82
prosecutions in fiscal year 2013, bringing the total actions over the past three fiscal years
to 283, nearly double the number of actions brought during the prior three fiscal years. In
addition, DOE obtained orders imposing more than $1.7 billion in sanctions, including
orders for more than $1.5 billion in civil monetary penalties and more than $200 million
in restitution and disgorgement. Therefore within the DOE files and documentation is
valuable information on the types of fraud, location(s) where fraudulent actions are
initiated, and characteristics of the victims of fraud in the commodities related industry.
This information could provide the basis for trend analysis. Fraud trend information
would allow the OCO to remain aware of the types of fraud taking place, how best to
respond to them and what should be provided to customers. However, the DOE
determined that providing information on fraud trends on an ongoing basis is difficult to
provide because of the manner in which data is collected and maintained. Additional
resources, ie staff or interns would be needed to extract consumer protection data from
the actions handled by DOE. The OCO would be able to use the resulting data to provide
customers with enhanced information and resources.

Ongoing discussion and/or meetings between the two internal groups could provide OCO
and DOE with valuable information to develop trends on such things as geographical
concentrations or prevalent types of fraud that could be used as website information,
special publications, blog topics, money show themes, etc. Also, if there are trends in the
type of fraud that is being prosecuted, OCO could use this data to develop information
specific to the crime that may become prevalent outside of commodity pool fraud,
precious metal fraud, and foreign currency trade.

GAO Standards for Internal Control in the Federal Government, Principle 14
Communicate Internally, states: “Management should communicate quality information
throughout the entity using established reporting lines. Quality information is
                                          7

communicated down, across, up, and around reporting lines to all levels of the entity.
Management communicates quality information down and across reporting lines to
enable personnel to perform key roles in achieving objectives, addressing risk….”

CFTC has not utilized the full potential of the information that DOE has readily
available. As a result, OCO may not be providing the most current information to the
public about specific commodity frauds. Dissemination of information regarding these
specific crimes could aid consumers to avoid fraud.

Recommendation #1
We recommend that CFTC management:

   •	 direct DOE and OCO to meet periodically to discuss needs and outreach, to
      develop a strategy on how to use the available data, and to work collaboratively to
      enhance and effectively use the information that is available and routinely
      collected by CFTC on an ongoing basis to include trend analyses, data
      enhancements, etc; and
   •	 use the information provided in their collaboration to develop platforms and
      methods to disseminate appropriate information to the public.

Management Response:

CFTC and OCO management concurred with the recommendation. OCO stated that they
welcome the opportunity to continue to expand their collaboration with DOE. They gain
insight on fraud and advertisement approval from DOE now and believe that DOE will be
very useful in OCO’s long term outreach campaign. DOE and OCO need to work
together to develop a strategy to use data and insights housed in DOE.

Auditor Analysis:

Based on management’s response, the recommendation will remain open until a strategy
is developed for ongoing collaboration between OCO and DOE and a strategy to use data
that is housed in DOE.


Consumer Outreach Program Has Not Maximized The Use Of Social Media

OCO staff has not maximized the use of social media. Our review shows that OCO staff
has not been consistent in using social media to get its message out to the investing
public. OCO staff told us that they used social media very sparingly at the start of the
Program but it did not prove to be an effective method for its target audience of men and
women ages 50-65, its designated target audience deemed most susceptible to commodity
fraud schemes. Although, the majority of the target audience may not spend significant
time using social media, the possibility of unintended beneficiaries and tech-savvy
seniors is not minimal. Other regulatory agencies we interviewed told us that they use
various forms of social media on a consistent basis to get their message out to the public.

                                         8

In addition, they stressed the low start-up and maintenance costs associated with social
media such as Facebook and Twitter. Additionally, other agencies indicated that the
unintended beneficiaries of the social media messages, i.e. family members and young
adults, may not have the funds to invest today, however, some will in the future and
educating them now could benefit them at a later time when they have the resources to
invest.

The Commodity Futures Trading Commission privacy policy states: “CFTC uses Twitter,
Facebook, Flickr, YouTube, and other social media sites as additional ways to provide
information to the public and fulfill its mission of protecting market participants and the
commodity and futures markets from fraud, manipulation and abusive practices…”

 Although the privacy policy allows the usage of social media, OCO staff stated that they
do not use social media to get their message out to the public because they believe it is an
ineffective medium for informing its target audience about fraud in the commodities
market. While social media may not be the most efficient way of getting the Program’s
message out, we see some benefits in exploring it as one of several options for informing
the public about fraud and potential for fraud in the commodities markets.

Recommendation #2
We recommend that CFTC management direct OCO to begin using various forms of
social media to get its message out to the investing community about fraud in the
commodities markets.

Management Response:

CFTC and OCO management concurred with the recommendation. OCO has contracted
an integrated marketing services firm to analyze the use of social media. OCO is hesitant
in venturing into all forms of social media due to their target audience’s usage; however,
OCO is cognizant that social media might be a tool to reach intermediaries, who could be
their target audience’s influencers. These could be group such as their target audience’s
children or their financial professionals.

Auditor’s Analysis:
Based on management’s response that OCO has not received the final results from the
marketing firm, this recommendation will remain open until a final analysis of the use of
social media has been received.


Consumer Outreach Program Does Not Have Its Own Website

The SEC has Investor.gov and the Financial Literacy and Education Commission has
MyMoney.gov. While CFTC has a website that includes a section that discusses the
operations of the OCO, OCO does not have its own website. Our review of other
regulatory agencies with a separate website for consumer protection and education
indicates that they are more customer-focused, and visually attractive. Additionally, those


                                         9

websites provided increased space for more information, resources, and links. A separate
website for OCO would give the Program more exposure and make it easier for a
consumer to find the information they need. Since as indicated in the December 2013
CFTC website analytics most consumers use Google, Bing and similar search engines to
locate the information needed more than the CFTC website directly.

GAO Standards for Internal Control in the Federal Government, Principle 15
Communicate Externally, states: “Management selects appropriate methods to
communicate externally. Management considers a variety of factors in selecting an
appropriate method of communication. Some factors to consider: audience (intended
recipients of the communication); nature of the information (purpose and type of
information being communicated); availability (information readily available to the
audience when needed); cost (resources used to communicate the information); and legal
or regulatory requirements (requirements by laws and regulations that may impact
communication). Management periodically evaluates the organization’s methods of
communication to ensure that the organization has the appropriate tools to communicate
quality information throughout and outside of the entity on a timely basis. In the federal
government, organizations not only report to Congress and the President but to the
general public as well. Organizations need to consider appropriate methods when
communicating with such a broad audience.

OCO is waiting on the results of web presence research that the marketing firm is
performing to determine how to proceed with a separate website or joining efforts with
another agency, such as SEC, on a website. The lack of a separate website for OCO could
result in the staff not getting its message out to the maximum number of consumers in the
commodities markets because the consumer finds the current solution too cumbersome or
too time-consuming.

Recommendation #3
We recommend that the CFTC management direct OCO to establish a separate website as
another mechanism for drawing the attention of the consumer to valuable information
about fraud in the commodities market.

Management Response:

CFTC and OCO management concurred with the recommendation. OCO has contracted
with an integrated marketing services’ firm to provide a website strategy to develop a
suitable web presence in terms of anti-fraud information. The strategy is still in
development but will be final by the end of April 2014.

Auditor Analysis:
Based on management’s response, this recommendation will remain open until the
strategy being developed by the marketing firm is finalized in April 2014.




                                        10 

Consumer Outreach Program Needs To Expand Its Methods Of Disseminating
Information To Investors

We believe that OCO staff has placed too much reliance on libraries for distributing its
literature on fraud awareness in the commodities markets. Our analysis of OCO
distribution data shows that there has been an inordinate reliance on libraries for getting
the Program’s message out to the public. Specifically, of the more than 44,000 copies of
publications and pamphlets distributed to date, 31,000 have gone to libraries. While
libraries may be an effective means of getting the Program’s message out to the public,
we believe such a heavy reliance on one distribution channel could result in other
distribution channels being overlooked, such as state agencies and organizations related
to OCO’s designated targeted audience.

The GAO Forum: The Federal Government’s Role in Improving Financial Literacy
states: “the federal government should do more to distribute existing financial education
materials. A participant noted that many federal, nonprofit, and financial industry
organizations create high–quality financial education materials that reach relatively few
people. These materials need to be marketed more effectively, using a variety of methods
to ensure that they reach as wide an audience as possible.”

OCO staff stated that there has been such a heavy concentration of distributing
information through libraries because it was an effective way for getting its message out
to the public with current resources. Such a heavy reliance on libraries could result in
OCO staff missing out on other equally as efficient and cost effective means of informing
the public about fraud in the commodities markets.

Recommendation #4
We recommend that CFTC management direct OCO staff to expand the distribution of its
literature beyond the current concentration to libraries. Specifically, they should
investigate distribution to state agencies, and organizations related to OCO’s designated
its targeted audience.

Management Response:

CFTC and OCO management concurred with this recommendation. OCO, in testing and
exploring different dissemination channels, determined that libraries might be an
effective and sensible channel for print materials. Print materials are only part of the
OCO content offering. There are other methods to convey anti-fraud and OCO has spent
time and money exploring these methods. The OCO will have an even wider range of
outreach capabilities now that message testing is complete and the strategy plan is
nearing finalization.




                                        11 

Auditor Analysis:

Based on management’s response, this recommendation will remain open until the
strategy plan is finalized and formal decisions are made on disseminating information to
the public.


Consumer Outreach Program Should Consider Expanding Its Staff

OCO lacks the diversified staffing levels we noted in other federal regulatory agencies
that we interviewed. Our interviews with other agencies showed that comparable offices
were staffed with thirteen to fifty staff. Specifically, the Consumer Financial Protection
Board has a staff of thirteen, the Federal Trade Commission has twenty, and the
Securities and Exchange Commission has fifty staff consisting of specialists in
marketing, financial instruments, and government regulations, all focusing on making
consumers aware of fraud in specific financial markets and other financial arenas.
Additionally, these agencies use the services of contractors to help them carry out their
mission. OCO has only two staff and the marketing firm on board yet the current budget
includes a request for only one additional staff. The budget, however, is not a barrier to
OCO hiring additional staff because the Customer Protection Fund ended fiscal year 2013
with approximately $100 million available for whistleblowers and consumer education.

The small staff limits the number of money shows and conferences OCO can attend to
reach consumers.      It limits timely implementation of the marketing plan and
enhancements to the program.

GAO Human Capital: A Guide for Assessing Strategic Training and Development Efforts
in the Federal Government states: “to ensure a strategic workforce planning approach, it
is important that agencies consider how hiring, training, staff development, performance
management, and other human capital strategies can be aligned to eliminate gaps and
improve the long-term contribution of critical skills and competencies that have been
identified as important for mission success.”

OCO staff stated that they do not plan to hire additional staff until its contractor
determines the best methods for reaching its target audience. They stated that making a
decision on which discipline to recruit prior to the contractor’s findings could result in
hiring staff that will not be needed to carry out its mission. However, maintaining such a
small staff precludes the Program from having the expertise that could maximize the
information available and provided to the public about commodities related fraud. A
larger staff should provide the Program with additional institutional knowledge as well as
improve the Program’s ability to inform the public about fraud in the commodities
markets.




                                        12 

       Recommendation #5
       We recommend that CFTC management direct OCO management to expand its core staff
       and its use of specialists either through direct hiring or contracting. Such an expansion
       should focus on hiring individuals in various fields including but not limited to
       commodities, marketing, regulations, communications, and other related areas.

       Management Response:

       CFTC and OCO management concurred with this recommendation. Based on
       preliminary strategy results from OCO’s marketing firm, OCO plans to expand its staff as
       needed based on their final outreach strategy. OCO recognizes that a larger campaign
       may require additional staff members with more expertise; however, OCO’s education
       mandate is narrowly targeted to a certain audience. While OCO does plan to expand its
       staff, they do not believe that current staffing levels have affected current outreach
       abilities.

       Auditor Analysis:

       We consider management to be responsive to the intent of the recommendation. We
       consider the recommendation to be resolved and open until OCO provides evidence of a
       hiring strategy.


CONCLUSION

OCO staff has taken some steps to ensure that the Program is implemented in accordance with
the Dodd-Frank Act in the most efficient and cost effective manner possible. While these
efforts are commendable, we believe there are several additional actions that could be taken to
ensure information about fraud and how to avoid it in the commodities market is disseminated to
the public to the maximum extent possible. We believe better coordination with DOE staff, use
of social media, implementing a website designated specifically for the program, expanding its
methods of disseminating information to the public, and hiring or contracting for additional
resources with expertise in commodities, marketing, and regulatory experience in the
commodities markets could improve OCO staff efforts to educate the consumers on fraud in the
commodities markets. It is not possible to identify a specific metric to indicate OCO’s success in
curbing fraud however, we believe taking the actions we recommend will improve the awareness
of the investing public; however, we believe taking the actions we recommend will improve the
awareness of the investing public.




                                               13 

Appendix A

Objectives, Scope, and Methodology

The objective of our audit was to evaluate existing plans, programs, and contracts for improving
consumer education of the risks and regulatory resources available to participants in the
commodity markets and ascertain compliance with program mandates outlined in the Dodd-
Frank Act. Our audit was conducted in accordance with applicable Government Auditing
Standards, 2011 revision.

The scope of this audit includes all activities of the Consumer Outreach Program from its
inception in 2012 through February 14, 2014.

In order to evaluate existing plans, programs, and contracts for improving consumer education of
the risks and regulatory resources available to participants in the commodity markets we reached
out to other agencies specifically, the Consumer Financial Protection Bureau (CFPB), Securities
and Exchange Commission (SEC), Department of the Treasury, Federal Trade Commission
(FTC), and the Financial Literacy and Education Commission (FLEC), to inquire about different
viewpoints on consumer outreach, ways to get a message out to consumers, as well as best
practices in the industry. Next, we interviewed CFTC personnel about how consumer outreach
affects the Commission as a whole, likely hot spots for fraud, and how they think the OCO
should get its message out to consumers. With our accumulated information we assessed OCO’s
current activities to gauge effectiveness of the Program.

In order to ascertain compliance with Program mandates outlined in the Dodd-Frank Act; we
reviewed the Act; determined the agency requirements for consumer education, investor
awareness and consumer resources; and assessed the agency’s efforts in improving consumer
education of indicators for fraud in the commodities markets and alerting consumers to the
regulatory resources to curb the incidence of fraud in the commodities markets.




                                              14 

Appendix B                       U.S. COMMODITY FUTURES TRADING COMMISSION

Management Response                            Three Lafayette Centre
                                    1155 21st Street, NW, Washington, DC 20581
                                            Telephone: (202) 418-5000
                                                 Y: (202) 418-5514




  Office of the

Executive Director





April 24, 2014
Tony Baptiste
Office of the Inspector General
U.S. Commodity Futures Trading Commission
Three Lafayette Centre
1155 21st Street NW
Washington, DC 20581


Dear Tony,

Please find below the U.S. Commodity Futures Trading Commission Office of Consumer
Outreach response to the audit report recommendations.

Michael Herndon
Consumer Outreach Officer




                                            15 

Recommendation #1

We recommend that CFTC management:

   •	 direct DOE and OCO to meet periodically to discuss needs and outreach, to develop a
      strategy on how to use the available data, and to work collaboratively to enhance and
      effectively use the information that is available and routinely collected by CFTC on an
      ongoing basis to include trend analyses, data enhancements, etc; and
   •	 use the information provided in their collaboration to develop platforms and methods to
      disseminate appropriate information to the public.


Management Response


    Agency agrees with recommendation

       Agency disagrees with recommendation

The OCO welcomes the opportunity for continued and additional collaboration with the DOE. In
addition to the OCO initiated collaboration mentioned above, the DOE is already one of eight
internal offices which are provided an opportunity to review and provide suggested revisions to
all new print materials, advertisements, web content, potential outreach topics, etc., developed by
the OCO. Also, the DOE is one of three offices that OCO must gain explicit approval before
such items above are considered final.

The OCO believes the data and insights housed in the DOE would be very useful in the OCO’s
long-term outreach campaign. As well, the OCO believes as it grows in size, experience, and
knowledge, it can provide valuable information to the DOE.



Recommendation #2

We recommend that CFTC management direct OCO to begin using various forms of social
media to get its message out to the investing community about fraud in the commodities markets.

Management Response



    Agency agrees with recommendation

       Agency disagrees with recommendation



                                                16 

Based on the contracted integrated marketing services firm’s initial and further-refined analysis
of the target audience’s financial information consumption habits, the OCO is hesitant to expend
significant resources attempting to achieve campaign behavior change goals for this audience
with the use of social media. Evidence exists that for both men and women in our target
audience, neither utilize social media at all to get information about financial matters.

However, the OCO staff is cognizant that, again based upon final needs determined from the
messaging and outreach plans, social media might be a tool to reach intermediaries such as the
target audience’s influencers, including their children and financial professionals. As well, the
OCO believes there exists some degree of use for social media in generating awareness and
merchandising campaign resources. Nonetheless, the OCO staff believes that if pursued, this
effort would be considered of secondary importance and effectiveness given the results of its
research and marketing counsel.

Lastly, whatever the OCO’s future use of social media may be, it as a means of communication
is not managed by the OCO. This function is housed in the Office of Public Affairs (OPA).
Currently, any the OCO social media activity also requires that an OPA staff person dedicate
time to the OCO outreach. Future use of any social media will require either the OCO’s solely
owned social presence or greater collaboration with between the OCO and OPA.

Recommendation #3

We recommend that the CFTC management direct OCO to establish a separate website as
another mechanism for drawing the attention of the consumer to valuable information about
fraud in the commodities market.

Management Response



    Agency agrees with recommendation

       Agency disagrees with recommendation

As mentioned above, the OCO tasked the contracted integrated marketing services firm with
providing a website strategy as it recognized that the CFTC’s current web presence, in terms of
anti-fraud information, was likely not suitable. That strategy is still in development but will be
final by the end of April 2014. The OCO has reason to believe the current direction of the
strategy is in line with the OIG recommendation of developing a separate website to house the
CFTC’s anti-fraud information and other related consumer content.

Recommendation #4

We recommend that CFTC management direct OCO staff to expand the distribution of its
literature beyond the current concentration to libraries. Specifically, they should investigate
                                               17 

distribution to state agencies, and organizations related to OCO’s designated its targeted
audience.

Management Response and Auditor’s Analysis

    Agency agrees with recommendation

       Agency disagrees with recommendation

Library distribution is not currently a particular concentration for dissemination of overall OCO
anti-fraud content and/or messages over any other. The OCO, in testing and exploring different
dissemination channels, determined that libraries might be an effective and sensible channel for
one area, print materials. A specific library effort was conducted as one method of distributing
the CFTC-authored Ponzimonium as they are an ideal location for the target audience to obtain
such a booklet, and libraries have shown substantial interest in the publication. The effort was
not any more time or cost consuming than most other efforts but did prove to be somewhat more
successful. Therefore, the distribution of print materials has been greater among libraries, but
only because that is a tactic that seems to work.

Other efforts and/or channels explored for print materials have also proved successful, while
others have not. An example of an unsuccessful effort was that with college alumni offices.
Since the target audience is more likely to be college-educated, the OCO contacted alumni
personnel at institutions of higher education to offer them the book as well as anti-fraud
brochures. The OCO received no interest with this offer and therefore did not pursue it further.
Given the success with libraries, the OCO has already scheduled a similar promotion for print
materials to state financial and consumer protection regulators as well as local community
centers. If these prove successful, our distribution of print materials will be more varied than it
currently is.

Print materials are only one part of the OCO content offering. There are other methods to convey
anti-fraud and the OCO has spent time and money exploring these. These include direct to
consumer outreach events, activities to increase web traffic to CFTC’s online fraud advisories,
advertisements to general downloads of the electronic version of Ponzimonium, outreach to
garner news coverage of CFTC’s anti-fraud enforcement actions, anti-fraud videos for the CFTC
website, and collaboration with other federal government agencies own outreach efforts.

The OCO will have an even wider range of outreach capabilities now that the message testing is
complete and strategy plan is nearing finalization. The OCO looks forward to focusing on the
messages and outreach tactics that, with counsel from the integrated marketing services firm,
prove to be the most effective in reaching out goals.

Recommendation #5



                                                18 

We recommend that CFTC management direct OCO management to expand its core staff and its
use of specialists either through direct hiring or contracting. Such an expansion should focus on
hiring individuals in various fields including but not limited to commodities, marketing,
regulations, communications, and other related areas.



Management Response and Auditor’s Analysis

    Agency agrees with recommendation

       Agency disagrees with recommendation

The OCO plans to expand its staff as needed based on the final outreach strategy. The OCO
recognizes that while it has the expertise needed for its interim campaign, a larger and permanent
effort may require additional staff members with more expertise in specific financial matters.
However, as the OCO mandate is not broad commodities trading education but rather narrowly
targeted to fraud prevention, the greatest expertise must likely remain on the issues and processes
that will lead consumers to adopt the behaviors that help protect themselves from fraud. As well,
the OCO can easily tap into current widely-available internal commodities trading expertise, as it
currently does, on the occasions that it is needed. This means the OCO will focus on maintaining
a staff, potentially along with a contracted integrated marketing services firm, that provides
primarily the required social marketing and communications expertise.

While the OCO does plan to expand its staff, current staffing levels have not affected outreach
ability at Money Shows or other consumer-facing conferences. The OCO staff has attended all
shows and conferences that it deemed relevant and effective in reaching the target audience. In
addition, there will be a significant amount of time between the finalization of the marketing
strategy and its execution. This time will allow the OCO to complete the hiring and onboarding
process of new staff.

With respect to the staff in the Securities and Exchange Commission’s (SEC) Office of Investor
Education and Advocacy, they are tasked with educating Americans about products, policies,
and processes in the securities markets. Those markets are vastly larger for retail investors and
traders than that under the OCO’s mandate. Also, the SEC staff also includes approximately 20
people who take and process complaints from the general public. The OCO is not tasked with
educating the public generally about the commodities markets and the complaint intake and
processing functions are housed within a different division at the CFTC. So, the responsibilities
of staffs of the two agencies are not totally comparable.

Similarly, the CFPB has a vastly broader mission than the OCO. The OCO’s mandate is specific
to helping consumers protect themselves from fraud in the commodities markets. The CFPB is
tasked with educating and empowering nearly all American consumers about every day financial


                                                19 

products such as mortgages, student loans, credit cards, etc. Again, the responsibilities of the two
agencies are not totally comparable.




                                                20 

